           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      THE SOCIAL SECURITY
       ADMINISTRATION’S
     INCIDENT RESPONSE AND
       REPORTING SYSTEM


   August 2007   A-14-07-17070




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      August 3, 2007                                                          Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Incident Response and Reporting System
           (A-14-07-17070)


           OBJECTIVE

           The objective of our review was to determine if the Social Security Administration (SSA)
           has an effective system for detecting, reporting, and responding to security incidents, in
           accordance with Federal regulations and established standards and guidelines.

           BACKGROUND

           Computer security-related threats have not only become numerous, diverse, and rapidly
           evolving but also more damaging and disruptive. Incident response capabilities are
           necessary for rapidly detecting incidents, minimizing loss and destruction, and restoring
           computing services. Incident response and reporting guidelines and procedures should
           have consistent, effective, and efficient actions, which are particularly important for
           incidents that may lead to prosecution. Also, handling evidence in a forensically sound
           manner puts decision makers in a position where they can confidently take the
           necessary actions. 1

           For an organization, an effective incident response capability is a complex undertaking
           and requires substantial planning and resources which should include:

               •   continuous monitoring for threats through intrusion detection systems;
               •   establishing clear procedures to assess the business impact of incidents;
               •   implementing effective methods to collect, analyze and report data; and
               •   developing relationships with appropriate internal and external groups.




           1
            National Institute of Standards and Technology Special Publication (SP) 800-86, Guide to Integrating
           Forensic Techniques into Incident Response, August 2006.
Page 2 - The Commissioner


The Federal Information Security Management Act of 2002 (FISMA) requires Federal
agencies to develop, document, and implement an information security program that
                                                                                      2
includes procedures for detecting, reporting, and responding to security incidents. In
July 2006, the Office of Management and Budget (OMB) released updated guidance 3
on the reporting of security incidents involving Personally Identifiable Information (PII) 4
to the United States Computer Emergency Readiness Team (US-CERT). Agencies are
now required to report all incidents involving PII to US-CERT within 1 hour of
discovering the incident. In September 2006, OMB issued a memorandum 5 that
contained the Identity Theft Task Force recommendations on the approach a
department or agency should take in responding to a theft, loss, or unauthorized
acquisition of personal information (i.e., incident) that poses a risk of subsequent
identity theft.

SSA maintains some of the largest databases of any civilian Federal agency. These
databases contain PII such as names, addresses, Social Security numbers (SSN),
dates of birth, and mothers’ maiden names. SSA’s Office of Systems (OS) is
responsible for maintaining these databases. Within OS, the Office of
Telecommunications and Systems Operations (OTSO) is responsible for controlling and
protecting the databases. To meet the requirements of FISMA, SSA developed several
methods to detect, remediate, report, and track security incidents. SSA established a
team within OS to handle security incidents on a daily basis. SSA also has a contractor
that operates an automated intrusion detection system. SSA routinely monitors firewall
activity to detect any incidents. Additionally, there is a help desk for employees to
contact in the event of information technology problems including potential security
incidents. Potential security incidents are tracked in SSA’s Change Asset Problem
Reporting System (CAPRS).

RESULTS OF REVIEW

SSA has established a framework for its incident response and reporting system.
There are various components within SSA that work together to protect the Agency’s
personal information and effectively remediate incidents when they occur. While the
Agency works diligently to protect itself against the latest security related incidents, the
following areas need improvement:

2
    Public Law (PL) 107-347, Title III, sections 301-303, 16 Stat. 2899, 2946-2959 (2002).

3
  OMB Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable Information and
Incorporating the Cost for Security in Agency Information Technology Investments, July 12, 2006.
4
 PII is any information about an individual maintained by an agency, including, but not limited to,
education, financial transactions, medical history, and criminal or employment history and information
which can be used to distinguish or trace an individual's identity, such as their name, Social Security
number, date and place of birth, mother’s maiden name, biometric records, etc., including any other
personal information which is linked or linkable to an individual.
5
 OMB Memorandum, Recommendations for Identity Theft Related Data Breach Notifications,
September 20, 2006.
Page 3 - The Commissioner


    •   SSA needs to appropriately address all security incidents, and
    •   SSA needs to ensure that the Office of the Inspector General (OIG) is
        appropriately included in the incident response process.

SSA NEEDS TO APPROPRIATELY ADDRESS ALL SECURITY INCIDENTS

We determined that SSA did not identify and report all appropriate incidents to the
Office of the Chief Information Officer (OCIO), US-CERT, and OIG. SSA needs to
report all appropriate security incidents to US-CERT and law enforcement as required
by FISMA. US-CERT coordinates defense against and responses to cyber attacks
across the Nation.

There are two types of security incidents: (1) computer security-related, and (2) PII.
For the computer security-related incidents, US-CERT has published seven computer
security incident and event categories for Federal agencies, in accordance with
                                                                                    6
National Institute of Standards and Technology (NIST) Special Publication 800-61.
The incident and event categories along with their respective reporting timeframes are
reflected in Tables 1 and 2 which follow.

                                         Table 1
                            Federal Agency Incident Categories
           Category                    Name                       Reporting Timeframe
                                                               Not Applicable – for Agency's
          Category 0     Exercise/Network Defense Testing
                                                                       internal use.
                                                                     Within 1 hour of
          Category 1           Unauthorized Access
                                                                   discovery/detection.
                                                                     Within 2 hours of
          Category 2             Denial of Service
                                                                   discovery/detection.
                                                                           Daily
                                                                     Within 1 hour of
          Category 3              Malicious Code
                                                             discovery/detection if widespread
                                                                      across agency.
          Category 4              Improper Usage                          Weekly


                                          Table 2
                              Federal Agency Event Categories
          Category                 Name                          Reporting Timeframe
        Category 5     Scans/Probes/Attempted Access                     Monthly
                                                              Not Applicable – for Agency's
        Category 6     Investigation
                                                                      internal use.




6
 NIST SP 800-61, Computer Security Incident Handling Guide, Section 2.1, January 2004; http://www.us-
cert.gov/federal/reportingRequirements.html.
Page 4 - The Commissioner


Computer Security-Related Incidents

From October 1, 2005 through January 26, 2007, SSA did not report any computer
security-related incidents to US-CERT. We reviewed all potential computer security-
related incidents in CAPRS for that time period and found 75 cases that should have
been reported. Specifically, we identified 39 “Category 3 – Malicious Code” incidents,
23 “Category 4 – Improper Usage” incidents, and 9 “Category 5 –
Scans/Probes/Attempted Access” events that should have been reported to US-CERT.
We identified an additional 4 “Category 5 – Scans/Probes/Attempted Access” events
which were not included in SSA’s CAPRS database, for a total of 75 incidents and
events that should have been reported to US-CERT. For example, one incident not
reported concerned a workstation that had a virus that could not be remediated through
the normal channels of running anti-virus software. The workstation had to be re-
imaged. Another example included hacking attempts where SSA sends a letter to the
source’s Internet Service Provider informing them of the illegal activity.

SSA reported that during 2004, it developed and US-CERT approved an approach that
limited reporting to only incidents that could not be prevented, or if successful, caused
undue harm. SSA could not provide documentation regarding this agreement with US-
CERT. We contacted US-CERT personnel and they noted that it is not their practice to
make these types of agreements with Federal agencies. Applying its own approach,
SSA accordingly reported zero incidents. OS is responsible for identifying and
evaluating potential incidents and informing the OCIO. However, we believe the
Agency did not meet the intent of US-CERT’s guidance 7 when it refrained from
reporting instances where the activities were successfully mitigated and did not impact
SSA services, internally or externally. Therefore, SSA needs to properly categorize and
report computer-related security incidents in accordance with NIST and US-CERT.
SSA plans to meet with US-CERT to discuss the Agency’s incident categorization and
reporting practices so it is consistent with Federal regulations and guidelines.

Personally Identifiable Information Incidents

For the PII incidents, we identified a total of 1,106 potential incidents in CAPRS from
August 9, 2006 through January 26, 2007. During our review of the potential PII
incidents, we found 147 incidents involving more than 1 record (see Table 3) that were
similar to other incidents SSA reported to US-CERT. US-CERT collects this information
to identify trends and ensure Agencies take corrective measures if incidents recur and
weaknesses continue to exist.

SSA reported 8 of the 147 incidents. For example, one of the eight incidents reported
involved the theft of a laptop and case folders that were not recovered. We have listed
some examples from the 139 unreported incidents that were similar to the 8 incidents
reported.



7
    NIST SP 800-61, Computer Security Incident Handling Guide, Section 2.1, January 2004.
Page 5 - The Commissioner


      •   A workstation was stolen from a field office that was burglarized. SSA never
          received the workstation back.
      •   A box was lost during shipment from a Disability Determination Services (DDS)
          office to a Program Service Center. The box contained eight disability folders
          that were not recovered.
      •   A DDS employee e-mailed 55 claimants’ SSNs, name, and case numbers to a
          “Hotmail” e-mail account.

                                             Table 3
                        PII Incidents Involving More Than One Record

                                      Incidents Reported by             Unreported
           PII Categories                                                            Total Incidents
                                               SSA                       Incidents
More than one record was
disclosed and the records were                  0                          53              53
returned or retrieved
More than one record was
disclosed and the records were                  8                          86              94
not returned or retrieved
TOTAL                                           8                          139            147

The Agency advised us that a risk-based approach was used to determine what was
reported to the former Commissioner 8 and to US-CERT. The former Commissioner
made the final decision on what was reported to US-CERT.

In addition to the 147 incidents involving multiple records identified above, we
discovered 959 incidents that involved only 1 claimant’s record. SSA reported only one
incident (see Table 4) involving one record to US-CERT. This incident involved an SSA
document that was given to an unauthorized individual and returned. We have listed
below some examples that are similar to the one incident reported.

      •   A detailed earnings query was accidentally mailed out to a wrong individual.
      •   A DDS employee sent disability information to the wrong claimant.
      •   A request for medical information was inadvertently sent to the wrong doctor.




8
    Jo Anne B. Barnhart, Commissioner of Social Security 2001 – 2007.
Page 6 - The Commissioner


                                                Table 4
                                 PII Incidents Involving One Record

                                     Incidents Reported by    Unreported
         PII Categories                                                      Total Incidents
                                              SSA              Incidents
One record was disclosed and
the record was returned or                    1                  684              685
retrieved.
One record was disclosed and
the record was not returned or                0                  274              274
retrieved.
TOTAL                                         1                  958              959

SSA needs to develop a formal policy for reporting PII incidents to US-CERT and
ensure its compliance. The Agency is revising the policy for reporting PII to reflect
decisions of SSA’s Commissioner. The Agency estimates that more of the PII incidents
recorded in CAPRS will be reported to US-CERT when the new policy is fully
implemented.

For the PII incidents returned to the Agency, SSA did not record the amount of time the
PII was out of the Agency’s possession. SSA should also track the length of time PII is
out of its control.

The incidents and events listed above that were not reported to OCIO, US-CERT or law
enforcement were the result of the following weaknesses in SSA’s incident reporting
policies and procedures.

    •   SSA lacks written procedures for detecting and reporting security incidents.
    •   SSA’s policy definition for a security incident is compliant with NIST and US-
        CERT; but the definition was not consistently implemented throughout the
        Agency.
    •   SSA’s roles and responsibilities for incident reporting do not comply with FISMA.

SSA Lacks Written Procedures for Detecting and Reporting Security Incidents

SSA did not adequately report all security incidents to US-CERT because SSA does not
have adequate written procedures for detecting and reporting security incidents.
According to FISMA, Federal agencies should have procedures to detect, report, and
respond to security incidents. During our audit, we found the Agency lacked
procedures to review information provided by US-CERT for detecting security incidents.
For example, US-CERT provides Federal agencies with data regarding suspicious
Internet protocol addresses and key logging incidents for agencies to incorporate into
their response programs. SSA did not always review or use this data to avoid or detect
security incidents. As a result of the lack of regular reviews, security information
available from US-CERT in September 2006 was not addressed until brought to SSA’s
attention in February 2007. At the end of the audit, SSA provided us procedures for
reviewing and responding to security events from US-CERT.
Page 7 - The Commissioner


We also found the Agency lacked formal written procedures for reporting security
incidents to US-CERT but the Agency plans to develop them in accordance with NIST.
OCIO plans to have this developed by the fourth quarter of Calendar Year 2007. Once
SSA has finalized its revised incident security policy, then procedures can be written to
address the specific functions.

SSA’s Policy Definition for a Security Incident is Compliant with NIST and US-
CERT; but the Definition Was Not Consistently Implemented throughout the
Agency

SSA’s implementation of its applied definition of a security incident was inconsistent
with formal Federal guidance. According to SSA, an approach was developed with US-
CERT approval, which limited reporting to only incidents that could not be prevented, or
if successful caused undue harm. SSA’s Information Systems Security Handbook
(ISSH) is the official security policy for the Agency. Although the ISSH definition of a
security incident concurred with the NIST and US-CERT definition, the actual practices
followed by the Agency were not documented in the ISSH, leaving misconceptions over
what should be reported to US-CERT. However, as noted above, no documentation
supporting an agreement with US-CERT was provided and US-CERT states it does not
make agreements with individual agencies.

Prior to July 2006, the ISSH definition included “…suspected viruses, threats to
persons, attempted systems intrusions, unauthorized release of Privacy Act information,
theft of government or personal property, or any other suspicious situation.” 9 In July
2006, the ISSH was updated to define a security incident as follows:

            An event in a computer system, or the threat of such an event, that
            would cause an adverse impact on the system. Examples of security
            incidents include malicious code (virus, worm, or Trojan horse), e-
            mail bombardment (spamming), an unauthorized change in system
            configuration or discovery of an unknown “hidden file”, repeated
            attempts to access SSA’s systems (hacking), or a stranger’s attempt
            to learn PINs and passwords under false pretexts (social
            engineering). 10

OTSO is the component responsible for monitoring SSA’s firewall, logging security
events that need to be researched, identifying security incidents, and reporting incidents




9
 Information Systems Security Handbook (ISSH), Chapter 16, Security Incident Identification, Reporting
and Resolution, page 3, May 2001.
10
     ISSH, Chapter 7, July 15, 2006.
Page 8 - The Commissioner


to the OCIO. The definition of a security incident SSA applied did not include
“attempts” or “threats,” as follows: “A computer incident is an adverse event, which
                                                               11
compromises some aspect of computer or network security.”

NIST defines an incident as “…a violation or imminent threat of violation of computer
security policies, acceptable use policies, or standard security practices.” 12 While
SSA’s published definition of a security incident was similar to the US-CERT definition
and included spamming, the definition was not being fully followed by OS.
Consequently, OS only reported incidents involving PII to the OCIO and did not
consider threats or attempted intrusions as security incidents. In addition, SSA needs
to revise its definition of a security incident to concur with NIST.

SSA’s Roles and Responsibilities for Incident Reporting Do Not Comply with
FISMA

SSA did not fully implement the roles and responsibilities for reporting security incidents
in accordance with FISMA. FISMA requires Federal agencies to develop, document,
                                                                 13
and implement an agency-wide information security program. FISMA designates the
responsibility for developing and maintaining the agencywide information security
program to the agencies’ Chief Information Officers (CIO). 14 This security program
must include an incident response capability. This capability includes procedures for
                                                              15
detecting, reporting, and responding to security incidents. FISMA also grants NIST
                                                                              16
the responsibility to develop security standards, guidelines, and procedures. NIST
states the incident response capability should include: “…organizational structure and
delineation of roles, responsibilities, and levels of authority.…” 17

SSA has established a Security Response Team (SRT) to respond when significant
incidents arise. As described in the Agency’s ISSH, one of the roles of the SRT is to
respond to incidents involving computer systems, Internet and Intranet servers, and
Local Area Network (LAN) Servers, including malicious code (virus, worm, or Trojan
horse) and e-mail bombardment (spamming), and alerts all end users to current threats



11
   An Overview of the Computer Incident Response Process at the Social Security Administration, Office
of Systems, Office of Telecommunications and Systems Operations, Division of Telecommunications
Security and Standards, April 28, 2005.
12
     NIST SP 800-61, Computer Security Incident Handling Guide, Section 2.1, January 2004.
13
     44 United States Code (USC) § 3544.
14
     44 USC § 3544(3)(B).
15
     44 USC § 3544(a)(3)(B).
16
     15 USC § 278g-3.
17
     NIST SP 800-61, Computer Security Incident Handling Guide, Section 2.3.1, January 2004.
Page 9 - The Commissioner


to the system. Additionally, the ISSH states the SRT “…consists of security staff,
systems personnel, and representatives of the Office of the Inspector General.” 18

SRT has not convened over the past several years when significant incidents have
occurred. Part of the reason for this inactivity seems to be that the criteria for invoking
the SRT has not been clearly defined and documented. Additionally, the components
and their representatives serving on the SRT have not been clearly identified.
We believe it is critical that the ISSH identify the components that are represented on
the SRT. In this era of rapidly changing personnel, it is essential that the SRT be as
clearly defined as possible to ensure effective continuity and performance of the
incident response and reporting process.

SSA also did not comply with FISMA with regard to responsibility for notification of
incidents. The ISSH states that the Deputy Commissioner for Systems (DCS) is
“…responsible for preparing and sending reports to the US-CERT on security
            19
incidents.” According to FISMA, a Federal agency’s CIO should notify and consult
with US-CERT. 20 According to SSA, although DCS sends the monthly incident reports
to the OCIO, DCS also sent the monthly incident reports directly to US-CERT through
April 2006. SSA did not send any monthly reports to US-CERT from May through
November 2006. Then, after internal Agency discussions on SSA’s FISMA
requirements, the OCIO began reporting the monthly incidents to US-CERT. Because
of this lack of a formalized process, the type and number of incidents reported to US-
CERT was inconsistent. SSA’s security policy needs to be updated to reflect the
current process for reporting incidents in accordance with FISMA. The OCIO plans to
revise the Agency’s security policy for reporting incidents.

SSA NEEDS TO ENSURE THAT THE OIG IS INCLUDED IN THE INCIDENT
RESPONSE PROCESS WHEN APPROPRIATE

Since September 11, 2001, Inspectors General have worked with agencies to afford
greater protection over the Nation’s critical assets. Identity theft has increasingly
become a more prevalent and destructive crime. As the holder of one of the largest
databases of PII, SSA can be a prime target for terrorists and criminals who wish to
harm our Nation and its citizens. SSA’s Inspector General has the tools and is in the
position to help SSA secure information and prevent harm.

To mitigate the risk of identity theft, OMB issued a memorandum 21 recommending that
all Federal agencies establish “…a core response group that can be convened in the
event of a breach.” The memorandum also recommended that, in the event of a

18
     ISSH, Chapter 7, Appendix B, Roles and Responsibilities.
19
     ISSH, Section 7.4, Appendix B.
20
     44 USC § 3544(b)(7)(C)(iii).
21
  OMB Memorandum Recommendations for Identity Theft Related Breach Notification,
September 20, 2006.
Page 10 - The Commissioner


breach, the core response group conduct a risk analysis to determine whether the
incident poses problems related to identity theft and, if the risk of identity theft is
present, that the agency tailors its response accordingly.

The memorandum states:

         …a core group should include, at a minimum, an agency’s chief
         information officer, chief legal officer, chief privacy officer (or their
         designees), a senior management official from the agency, and the
         agency’s inspector general (or equivalent or designee). Such a
         group should ensure that the agency has brought together many of
         the basic competencies needed to respond, including expertise in
         information technology, legal authorities, the Privacy Act, and law
         enforcement.

In terms of safeguarding PII, SSA stated it is in the process of reviewing and revising
the PII policies and procedures developed under the direction of the former
Commissioner to reflect the direction of SSA’s current Commissioner. Part of the
revised process will be to put in place an agencywide governance model, which will
include an executive level steering committee as well as other standing and ad hoc
workgroups and teams which will oversee the development and implementation of the
Agency’s policies for safeguarding PII. For example, the Agency will use a cross
component workgroup to develop PII notice and remediation issues including
establishing a “core group” as recommended in OMB’s memorandum 22 concerning data
breach notification. However, as of June 1, 2007, SSA has not included the OIG in the
core response group as recommended by OMB.

SSA did not consistently notify OIG’s Office of Investigations when security incidents
occurred so that OIG could have assisted in the preservation of electronic evidence and
potentially pursue the matter for further investigation, if necessary. We identified at
least six incidents and events that should have been referred to the OIG for
investigation—two PII incidents and four security-related events. For example, one
incident involved an employee having unauthorized password cracking software running
on an external hard drive connected to his workstation. Another example involved an
employee who misappropriated approximately 40 case folders for her personal use.
The four security-related events involved hacking attempts when SSA sent abuse
letters to Internet Service Providers (ISP). When the ISPs did not respond, SSA should
have referred these cases to OIG so that an appropriate investigation would have been
performed and appropriate action taken.




22
  OMB Memorandum Recommendations for Identity Theft Related Breach Notification,
September 20, 2006.
Page 11 - The Commissioner


FISMA requires Federal agencies, as part of their security program, to have procedures
for notifying and consulting with law enforcement agencies, including the OIG, when
                 23
incidents occur. Additionally, NIST guidance recommends that law enforcement be
contacted “…through designated individuals in a manner consistent with the
requirements of the law and the organization’s procedures.” 24

CONCLUSION AND RECOMMENDATIONS
We found SSA has taken steps to detect, report, and respond to security incidents.
The Agency has established a framework for its incident response and reporting
system, and components within SSA work diligently to protect the Agency’s personal
information and effectively remediate incidents when they occur. However, we have
identified areas that need improvement, such as in SSA’s core response group,
consistency in the Agency’s incident reporting policy and practices, the classification
and reporting of incidents, and in the stipulations of the SRT. Therefore, we
recommend SSA:

1. Ensure the definition of a security incident consistent with NIST is known and used
   throughout the Agency.

2. Align policy, procedures and practices for reporting PII incidents including the
   Agency’s escalation policy to US-CERT.

3. Fully develop and implement formal written procedures consistent with the Agency’s
   policy and practice for reporting Computer-Related Security incidents to US-
   CERT.

4. Properly categorize and report computer-related security incidents in accordance
   with the NIST and US-CERT criteria.

5. Finalize and implement formal written procedures for reviewing and responding to
   security events from US-CERT.

6. Fully implement the SRT identified in the Agency’s incident response policy. This
   includes adequately identifying all members of the SRT and defining criteria for
   when the SRT should be invoked.

7. Include the OIG in the core response group recommended by the September 20,
   2006 OMB Memorandum.

8. Ensure that OIG is notified of all actual or potential security incidents when they
   occur, so OIG can determine whether further criminal investigation is required.


23
     44 USC § 3544(b)(7)(C)(i).
24
     NIST SP 800-61, Computer Security Incident Handling Guide, Section 2.3.2.2, January 2004.
Page 12 - The Commissioner


AGENCY COMMENTS
SSA agreed with all our recommendations. See Appendix C for the full text of SSA’s
comments.




                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                           Appendix A

Acronyms
CAPRS     Change, Asset, and Problem Reporting System
CIO       Chief Information Officer
DCS       Deputy Commissioner for Systems
DDS       Disability Determination Services
FISMA     Federal Information Security Management Act of 2002
ISSH      Information Systems Security Handbook
ISP       Internet Service Providers
NIST      National Institute of Standards and Technology
OCIO      Office of the Chief Information Officer
OIG       Office of the Inspector General
OMB       Office of Management and Budget
OS        Office of Systems
OTSO      Office of Telecommunications and Systems Operations
PII       Personally Identifiable Information
SSA       Social Security Administration
SP        Special Publication
SRT       Security Response Team
U.S.C.    United States Code
US-CERT   United States Computer Emergency Readiness Team
                                                                                           Appendix B

Scope and Methodology
Our objective was to determine if the Social Security Administration (SSA) has an
effective system for detecting, reporting, and responding to security incidents in
accordance with Federal regulations and established standards and guidelines.

To meet our objective, we examined SSA policies, procedures and practices used by
the Agency in their detection and reporting of attacks against its networks. Specifically,
we examined:

      •    SSA’s policy for the Agency’s incident response and reporting system, in the
           November 15, 2006, June 15, 2006, and the May 2001 version of the Information
           Systems Security Handbook;
      •    Incident response procedures in An Overview of the Computer Incident
           Response Process at the Social Security Administration, Office of Systems (OS),
           Office of Telecommunications and Systems Operations, Division of
           Telecommunications Security and Standards, April 28, 2005;
      •    Monthly Computer Incident Reports from October 2005 through November 2006;
           and
      •    Incidents documented in the Change Asset Problem Reporting System
                                                                                    1
           according to the Federal Agency Incident Categories (see following table) and
           recorded incidents when Internet Service Providers were contacted.




1
    US-CERT Federal Incident Reporting Guidelines, http://www.us-cert.gov/federal/reportingrequirements.html.


                                                         B-1
                                 Federal Agency Incident Categories
Category         Name                              Description                        Reporting Timeframe
              Exercise/        This category is used during state, federal,
                                                                                   Not Applicable; this category
Category      Network          national, international exercises and approved
                                                                                   is for each agency's internal
0             Defense          activity testing of internal/external network
                                                                                   use during exercises.
              Testing          defenses or responses.
                               In this category an individual gains logical or
Category      Unauthorized     physical access without permission to a             Within 1 hour of
1             Access           federal agency network, system, application,        discovery/detection.
                               data, or other resource
                               An attack that successfully prevents or impairs     Within 2 hours of
                               the normal authorized functionality of              discovery/detection if the
Category      Denial of        networks, systems or applications by                successful attack is still
2             Service          exhausting resources. This activity includes        ongoing and the agency is
                               being the victim or participating in the Denial     unable to successfully
                               of Service.                                         mitigate activity.
                               Successful installation of malicious software
                               (e.g., virus, worm, Trojan horse, or other
                                                                                   Daily
                               code-based malicious entity) that infects an
Category      Malicious                                                            Note: Within 1 hour of
                               operating system or application. Agencies are
3             Code                                                                 discovery/detection if
                               NOT required to report malicious logic that
                                                                                   widespread across agency.
                               has been successfully quarantined by
                               antivirus software.
Category      Improper         A person violates acceptable computing use
                                                                                   Weekly
4             Usage            policies.

                                  Federal Agency Event Categories
Category           Name                           Description                         Reporting Timeframe
                                 This category includes any activity that
                                 seeks to access or identify a federal agency      Monthly
               Scans/Probes/
Category                         computer, open ports, protocols, service, or      Note: If system is classified,
               Attempted
5                                any combination for later exploit. This           report within 1 hour of
               Access
                                 activity does not directly result in a            discovery.
                                 compromise or denial of service.
                                                                                   Not Applicable; this category
                                 Unconfirmed incidents that are potentially        is for each agency's use to
Category
               Investigation     malicious or anomalous activity deemed by         categorize a potential incident
6
                                 the reporting entity to warrant further review.   that is currently being
                                                                                   investigated.

We also reviewed the:

      •   Federal Information Security Management Act of 2002 (FISMA); 2
      •   National Institute of Standards and Technology (NIST) Special Publication (SP)
          800-61, Computer Security Incident Handling Guide, January 2004;
      •   NIST SP 800-86, Guide to Integrating Forensic Techniques into Incident
          Response, August 2006;



2
    PL 107-347, Title III, 16 Stat. 2899, 2946-2961 (2002).


                                                       B-2
   •   Office of Management and Budget (OMB) Memorandum M-06-19, Reporting
       Incidents Involving Personally Identifiable Information and Incorporating the Cost
       for Security in Agency Information Technology Investments, July 12, 2006;
   •   OMB Memorandum M-06-15, Safeguarding Personally Identifiable Information,
       May 22, 2006;
   •   OMB Memorandum M-06-20, Fiscal Year 2006 Reporting Instructions for the
       Federal Information Security Act and Agency Privacy Management, July 17,
       2006;
   •   OMB Memorandum Recommendations for Identity Theft Related Breach
       Notification, September 20, 2006;
   •   OMB Memorandum M-07-16, Safeguarding Against and Responding to the
       Breach of Personally Identifiable Information, May 22, 2007; and
   •   The First Responder’s Guide to Computer Forensics, Carnegie Mellon Software
       Engineering Institute, March 2005.

We interviewed representatives from International Business Machines Corporation,
United States Computer Emergency Readiness Team, and the following SSA
components:

   •   OS is responsible for technical aspects of implementation and maintenance
       related to SSA’s incident reporting process; and
   •   Office of the Chief Information Officer (OCIO) directs and manages SSA's
       enterprise information technology security program. This includes establishing
       Agency-wide security policies, managing the reporting, and monitoring processes
       to ensure compliance.

We performed our field work in SSA Headquarters from September 2006 through April
2007. We determined that the data used in this report was sufficiently reliable to meet
our audit objectives and intended use of the data. We determined that our use of this
data should not lead to an incorrect or unintentional message. The audited entities
were OCIO and OS. We conducted our review in accordance with generally accepted
government auditing standards.




                                           B-3
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM



Date:      July 19, 2007                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s
           Incident Response and Reporting System” (A-14-07-17070)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S INCIDENT RESPONSE
AND REPORTING SYSTEM”(A-14-07-17070)

Thank you for the opportunity to review and comment on the draft report. We appreciate your
conducting this audit of the Social Security Administration’s (SSA) Response and Reporting
System. We recognize the importance of ensuring that the Agency has an effective system for
detecting, reporting, and responding to security related incidents, in accordance with Federal
regulations and established standards and guidelines.

The report captures the essence of the 2004 agreement between SSA and the United States
Computer Emergency Readiness Team (US-CERT) officials that limited SSA’s reporting to only
incidents that could not be prevented, or if were successful, caused undue harm. It is unfortunate
that upon SSA OIG’s inquiry to US-CERT officials, they would not confirm the agreement.
However, we stand behind the veracity of the agreement.

Recommendation 1

SSA should ensure the definition of a security incident consistent with the National Institute of
Standards and Technology (NIST) is known and used throughout the Agency.

Comment

We agree. SSA policy and other directives are inclusive of the definition for a security incident
defined by NIST and will be communicated throughout the Agency.

Recommendation 2

SSA should align policy, procedures and practices for reporting personally identifiable
information (PII) incidents including the Agency’s escalation policy to the US-CERT.

Comment

We agree. The Agency will work to ensure practices and procedures for reporting and escalation
of PII incidents align.

Recommendation 3

SSA should fully develop and implement formal written procedures consistent with the Agency’s
policy and practice for reporting Computer-Related Security incidents to US-CERT.




                                                C-2
Comment

We agree. We will develop and implement formal written procedures consistent with Agency
policy for reporting computer related security incidents to US-CERT. SSA will report computer
related security incidents in accordance with SSA policy, standards and procedures.

Recommendation 4

SSA should properly categorize and report computer-related security incidents in accordance
with the NIST and US-CERT criteria.

Comment

We agree. We have updated the Change, Asset, and Problem Reporting System queue to use the
US-CERT categories for security incidents.

Recommendation 5

SSA should finalize and implement formal written procedures for reviewing and responding to
security events from US-CERT.

Comment

We agree. We have updated the procedures to reflect all incidents reported from US-CERT, not
just keyloggers.

Recommendation 6

SSA should fully implement the Security Response Team (SRT) identified in the Agency’s
incident response policy. This includes adequately identifying all members of the SRT and
defining criteria for when the SRT should be invoked.

Comment

We agree. We will review and update the Agency's incident response policy to include
identification of SRT members by position and re-defining criteria for activation.

Recommendation 7

SSA should include the OIG in the core response group recommended by the September 20,
2006 Office of Management and Budget Memorandum (OMB).




                                              C-3
Comment

We agree. Upon completion and implementation of policy for Notification and Remediation, the
OIG will be included in the core response group.

Recommendation 8

SSA should ensure that OIG is notified of all actual or potential security incidents when they
occur, so OIG can determine whether further criminal investigation is required.

Comment

We agree. The OIG Criminal Investigations Unit will be notified of all actual or potential
security incidents when they occur.




[In addition to the comments above, SSA provided technical comments which have
been addressed in this report.]




                                               C-4
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Data Analysis and Technical Audit Division, (410) 965-9702

   Phil Rogofsky, Audit Manager, Network Security and Telecommunications Branch,
   (410) 965-9719

Acknowledgments

In addition to those named above:

   Mary Ellen Moyer, Senior Program Analyst
   Anita McMillan, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-14-07-17070.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
